June 2005
Report No. 05-021


Status of Virginia Square Phase II
Construction




        EVALUATION REPORT
             eral
                                                                                                       Report No. 2005-021
                                                                                                                June 2005
                                 Status of Virginia Square Phase II Construction

                                 Results of Evaluation

                                 The VASQ Phase II project costs are within budget and that tasks are being completed
                                 on schedule. Also, the FDIC is effectively following its established project control
                                 framework. Further, DOA is planning for space utilization in light of corporate
Background and Purpose of        downsizing and has analyzed several options for disposition of vacant space at VASQ.
Evaluation                       We validated the reasonableness of most of the assumptions used in those options.
                                 However, the cost-benefit of one of the options was, in part, dependent on a sufficient
In March 2002, the FDIC’s        number of contractors performing work at VASQ. While we validated the per capita
Board of Directors authorized    savings estimates from moving Division of Information Technology (DIT) contractors
$106.5 million for Phase II of   on-site under this option, we could not determine with certainty the number of
the Virginia Square (VASQ)       contractors the Corporation planned to move on-site or whether that number would
development—the design and       fluctuate over time.
construction of a second
office building and special-             Breakeven Analysis of Savings From Moving Additional DIT
purpose facility to                      Contractor Personnel On-Site (10-Year Net Present Value)
accommodate 1,119 FDIC
employees currently housed                             $18.0

in leased space.                                       $16.0
                                                       $14.0
                                                       $12.0
In October 2004, the Chief
                                            Millions




                                                       $10.0
Operating Officer (COO)                                 $8.0
announced a decision to                                 $6.0
reduce permanent staff in                               $4.0
several divisions. Staffs from                          $2.0
some of the divisions were                              $0.0
already scheduled to move to                                     100        125         150      175       200       225
VASQ. In January 2005, the                                                Additional DIT On-Site Contractor Staff
COO tasked the Division of
                                                       DIT On-Site Contractor Savings         OIG Estimated Lease Revenue
Administration (DOA) to
                                                       DOA/Ai Estimated Lease Revenue
evaluate space utilization of
FDIC-owned office buildings               Source: OIG analysis.
in light of corporate
downsizing.                      As shown, from a financial standpoint, DIT will need to house a minimum of 150 to
                                 175 additional contractor staff currently located off-site to break even under Option III
The objective of our             in comparison to the options that involve leasing space. Further, the DIT contractors
evaluation was to determine      would need to remain on site for the full 10-year period covered by the analysis.
whether: (1) the VASQ            However, there are non-monetary factors related to IT security, access/communication,
Phase II project costs are       and equipment standardization that should be considered. This report makes no
within budget and tasks are      recommendations, but we encouraged DOA and DIT to continue to work together to
being completed on schedule,     develop more precise estimates of anticipated contractor staffing on-site at VASQ to
(2) the FDIC is following its    help ensure that DOA selected the space utilization option that provides the greatest
established project control      operational and financial benefits.
framework, and (3) DOA has
planned for space utilization    Management Response
in light of corporate
downsizing.                      DIT provided additional reasons why future DIT contractor personnel numbers cannot
                                 be definitively determined including contractor consolidation schedules, the effect of
                                 changing IT requirements on contractor workload, and fluctuations in contractor
                                 personnel as new vendors take on new tasks from old vendors or implement best
                                 practices which result in personnel efficiencies. We incorporated this additional
                                 information into our final report where appropriate.
                              TABLE OF CONTENTS


BACKGROUND                                                                       1
EVALUATION RESULTS                                                               2
Project Costs and Schedule                                                       2
Project Control Framework                                                        3
Space Utilization                                                                4
      OIG Analysis of DOA Estimates                                              7
CONCLUSION                                                                      11
CORPORATION COMMENTS AND OIG EVALUATION                                         11
APPENDIX I: OBJECTIVE, SCOPE, AND METHODOLOGY                                   12
APPENDIX II: CORPORATION COMMENTS                                               13


TABLES:
Table 1: DIT Per Capita On-Site Contractor Analysis                              5
Table 2: DIT Non-Monetary Benefits of Housing Contractors On-Site                6
Table 3: Net Present Value Cost Analysis of Real Estate Options                  6
Table 4: Preliminary Estimates on Impact of Downsizing                           7
Table 5: Existing On and Off-Site DIT Contractors                                9


FIGURE:
Breakeven Analysis of Savings from Moving Additional DIT Contractor Personnel
                                                                                10
On-Site (10-Year NPV)
Federal Deposit Insurance Corporation                                                               Office of Audits
801 17th Street NW, Washington, DC 20429                                               Office of Inspector General



DATE:                                  June 10, 2005

MEMORANDUM TO:                         Arleas Upton Kea, Director
                                       Division of Administration



FROM:                                  Russell A. Rau [Original signed by Stephen M. Beard for Russell A. Rau]
                                       Assistant Inspector General for Audits

SUBJECT:                               Status of Virginia Square Phase II Construction
                                       (Report No. 2005-021)

This report presents our evaluation of the status of Virginia Square Phase II Construction. The
objectives of this evaluation were to determine whether: (1) the Virginia Square Phase II project
costs are within budget and tasks are being completed on schedule, (2) the FDIC is following its
established project control framework, and (3) the Division of Administration (DOA) has
planned for space utilization in light of corporate downsizing. Additional details on our
objective, scope, and methodology are provided in Appendix I.

Background
In 1997, the FDIC Board of Directors directed that the DOA develop a long term strategy for
future headquarters housing requirements. FDIC established a task force in August 1997 to
identify and evaluate options and propose a cost-effective, long-range housing plan. The task
force recommended that the FDIC construct another building at Virginia Square to accommodate
future office space requirements for 1,119 permanent employees and 155 contractor staff housed
in leased space. From 1998 through March 2002, the FDIC selected a project team leader,
established cost and time constraints, evaluated funding sources, and determined the oversight
structure for the project.

In March 2002, the FDIC Board of Directors authorized $106.5 million for Phase II of the
Virginia Square development—the design and construction of a second office building and a
special-purpose facility to be completed in December 2005. The FDIC established an FDIC
project team and contracted with three primary contractors: David Orr Partners—Development
Manager; Ellstreet Corporation (Ai)—Architecture and Engineering firm, and Turner
Construction Company—General Contractor. The FDIC also contracted with Heery
International to be a Disbursements Advisor and to provide independent review and consulting
services. Groundbreaking for the new building occurred in September 2003, and the FDIC
anticipates relocating employees from its Washington, D.C., offices to the new Virginia Square
office building starting in December 2005.

FDIC oversight of the project is provided by the Corporation’s Board of Directors, the Executive
Oversight Committee (EOC), and an FDIC Project Team. The Board of Directors authorized the
project, provides funding, and monitors the project through quarterly progress reports. The EOC
is composed of the FDIC Deputies to the Chairman and is responsible for monitoring adherence
to the project budget, schedule, and internal controls over construction activities. The EOC also
approves change orders in excess of $100,000 and receives updates from the project team and the
contractors. The project team is composed of FDIC employees who are also the oversight
managers and technical monitors for the four major contracts and is headed by a DOA Associate
Director who also oversees the work of the General Contractor. The project team works closely
with the contractors and meets weekly with them to discuss progress and issues. The
Development Manager provides a monthly status report (Progress Report) to the project team
and provides monthly briefings to the EOC.

Evaluation Results
We found that the Virginia Square Phase II project costs are within budget and that tasks are
being completed on schedule. Also, the FDIC is effectively following its established project
control framework. In that regard, DOA’s contract management has been instrumental to
ensuring project goals are met. Finally, DOA is also planning for space utilization in light of
corporate downsizing and has analyzed several options for disposition of vacant space at VASQ.
We were able to validate the reasonableness of most of the assumptions used in those options.
However, we could not determine with certainty the number of contractors that the Corporation
actually planned to move on-site under an option to house contractors in the vacant space or
whether that number would fluctuate or stay constant over time. The cost/benefit of housing DIT
contractors at Virginia Square is, in part, dependent on a sufficient number of FDIC contractor
personnel actually performing work on-site at Virginia Square.

Project Costs and Schedule
We concluded that project costs are within budget and that tasks are generally being completed
on schedule. As of March 31, 2005, budget commitments on the project totaled $102 million
and remaining projected costs totaled $4.5 million, within the original $106.5 million project
budget. Further, the March 31, 2005 Progress Report estimated a February 8, 2006 construction
completion date. The current Turner contract calls for a January 19, 2006 completion date.

The Turner contract is a firm fixed-price contract. Under this type of contract, the FDIC is
committed to paying the contractor the total contract amount subject to contract change orders.
However, the contractor is also committed to completing the work within the amount specified.
The project budget of $106.5 million includes a contingency allowance of $4.9 million. As of
March 31, 2005, the FDIC had not committed any of the contingency allowance on the contract.
The March 31, 2005 Progress Report indicated that contract expenditures were within budgeted
amounts and projected an overall project savings of $1.4 million, not including any balance that
may remain in the contingency allowance when the project is completed.

The DOA Associate Director who heads the FDIC project team and FDIC’s Disbursement
Advisor reported to us that the project is generally on schedule and under budget. These
comments were consistent with the March 31, 2005 Progress Report which indicated that the



                                                2
project completion date had only slipped 20 days from the original schedule. The additional time
was the result of FDIC-approved change orders which impacted final occupancy dates.

Project Control Framework
The FDIC has established and is following a project control framework for the management of
the Virginia Square Phase II construction project.1 Adherence to the project control framework
has contributed to the project being completed on schedule and within budget. The project
control framework includes continuous monitoring of the project, formal documentation of
change orders and contract modifications, comparison of updated cost and budget information
with the original cost and budget estimates, and continuous communication between the FDIC
and contractors to ensure that issues are addressed in a timely manner.

To evaluate whether FDIC was following its control framework, we interviewed the project’s
contracting officer, oversight managers, technical monitors, and contractor personnel. We also
reviewed contract files, meeting minutes, and Progress Reports. We found that the current status
and progress of the Virginia Square Phase II project are continuously monitored and documented
in the monthly Progress Reports. These reports include a time line to track planned and actual
progress and document requests for information among the project team and contractors. The
Progress Reports also include a comparison of updated cost and budget estimates with the
original cost and budget estimates.

FDIC project team and contractor representatives hold weekly meetings to discuss current
progress and issues. The Development Manager’s monthly progress report contains minutes of
these weekly meetings along with Task Lists to track task assignment and due dates. In addition,
all Requests for Information are documented and tracked in the Progress Report. Further, the
FDIC Technical Monitor and contractor representatives conduct a monthly walk-through of the
project site and discuss the General Contractor’s request for a progress payment in relation to the
physical evidence of the progress. Finally, the FDIC and Disbursement Advisor have further
strengthened the project control framework by thoroughly reviewing all invoices and adjusting
them as necessary prior to payment.

Change Orders: The original Board case budgeted a project change order allowance of
$3,939,799 and a contingency allowance of $4,918,632 intended to cover costs for unanticipated
events occurring during design and construction, such as escalating building costs involving site
conditions and equipment. Change orders are written orders authorizing and directing the
contractor to charge for work not included in the contract’s original scope of work.

As of March 31, 2005, Turner Construction had requested 50 project change orders totaling
$2.2 million and the FDIC had approved 37 of the change orders totaling $1.2 million. The
Development Manager told us that the number of change orders on this project was very low
relative to other similar construction projects. Change order increases ranged in price from
$4,000 to $270,000, and only two change orders were in excess of $100,000. Of the 37 change

1
 We issued a report, Control Framework for the Virginia Square Phase II Project (Report No. 04-018, dated
April 22, 2004), which concluded that FDIC had established an adequate control framework for monitoring
construction of the building.


                                                       3
orders approved by the FDIC, only three were approved for the original price submitted by
Turner. The FDIC had negotiated a lower price on all other change orders after reviewing the
original change order request. The Development Manager was involved in the review process on
all change orders and provided an evaluation of the change order requests to the FDIC.

The change orders generally resulted from unexpected design deviations encountered once
construction on the project began. For example, on the Virginia Square Phase II project,
comments from the Arlington County Fire Marshall on the plans submitted for the Building
Permit required structural changes and additional concrete reinforcement to the fire lanes. The
original plans were designed to be within the Arlington County code when they were submitted;
however, Arlington County is in the process of revising the requirements to provide necessary
support for fire equipment in the event of an emergency. This required a number of change
orders to the structure and the amount of concrete used in constructing the fire lanes.

We examined the FDIC’s process for review and approval of change orders and selected a
sample of six change orders to verify that they had been reviewed and approved in a timely
manner. We found that the file for each change order contained support for the change order
amount, a description of the change order, and evidence that the change order had been reviewed
by FDIC officials and the Development Manager within the requested timeframe. We concluded
that the number and dollar amount of change orders were supported and within the original
budgeted estimates. Further, we verified that none of the $4.9 million project contingency
allowance had been used.

Permits: We verified that all permits that the FDIC was required to obtain for the Virginia
Square Phase II project were obtained and approved by Arlington County within required project
timeframes. The construction project required the FDIC to obtain five permits, which had been
approved within the timeframes required for the project to be completed on schedule. No delays
have occurred on the Virginia Square Phase II construction as a result of the permit-approval
process. Arlington County approved the FDIC’s final permit on February 4, 2005.

Space Utilization
DOA is in the process of conducting a space utilization analysis to evaluate several options for
the disposition of vacant space at Virginia Square resulting from corporate downsizing. We
validated the reasonableness of most of the cost assumptions related to staffing and leasing used
in DOA’s space utilization analysis. However, we could not determine with certainty the
number of contractors the Division of Information Technology (DIT) planned to move on-site or
whether that number would fluctuate over the time period covered in DOA’s analysis.

In October 2004, the Chief Operating Officer (COO) announced a decision to reduce permanent
staff in several divisions. Staff from these divisions were already scheduled to move to Virginia
Square upon completion of Phase II construction. In January 2005, the COO tasked DOA with
evaluating space utilization of FDIC-owned office buildings in light of corporate downsizing.




                                                4
In January 2005, DOA issued a Task Order to Ai to evaluate space utilization alternatives which
stated:

         Ai will develop a study to determine space utilization at FDIC’s three owned properties
         (550 17th Street, 1776 F Street & VA Sqr.) and alternates for disposition of unoccupied
         vacant space recommending the most cost efficient option based on a cost benefits
         analysis. The study should consider existing and projected population, organization, and
         existing and projected space availability, effective first quarter 2006, but with minimal
         reconfiguration of existing facilities, and minimal impact on the current budget and
         schedule of the Virginia Square Phase II project. The study should be based on four
         options, if viable:

            • Leasing 1776 F Street
            • Sell 1776 F Street
            • Lease Va Sqr. Phase II South Tower
            • House [DIT] Contractors – Va Sqr. Phase II North Tower

Following task order award, DOA removed from consideration the second option, to sell the
FDIC-owned building at 1776 F Street, because there was not enough vacant space in
FDIC-owned Washington, D.C., buildings to warrant the sale.

DOA provided Ai with DOF-prepared future FDIC employee staffing estimates to assist with the
analysis. In late January 2005, DIT provided an estimate of cost savings that the FDIC could
achieve by providing office space at Virginia Square for contract personnel currently housed
off-site. DIT based its estimates (shown in Table 1) on contractor rates from a sample of existing
contracts and calculated per capita annual cost averages based on 174 current DIT off-site
contractors.

Table 1: DIT Per Capita On-Site Contractor Analysis
 Cost Item                                                                                   Cost
 Contractor rate reduction from housing contractors on-site                                  $9,100
 Annual external IT security monitoring costs avoided by housing contractors on-site         1,609
 Equipment and connectivity charges at vendor sites.                                         1,057
 Less: Computer and telephone support necessary for contractors on-site.                     (2,434)
 Annual Savings Per On-Site Contractor Employee                                              $9,332
Source: DIT.
Note: DIT’s analysis also included a cost factor of $3,000 for the revenue lost from not leasing Virginia Square.
We removed this amount from the DIT calculation because it is addressed in DOA’s space utilization analysis.

As shown in Table 1, DIT estimated an annual cost savings of $9,332 per contract employee by
providing these contractors with space in the Virginia Square facility because contractors
generally provide discounted rates when their personnel work on-site. DIT determined that its
existing contractors offered on-site rates which were, on average, 6.3 percent less than the
contractors’ off-site rates. DIT also provided that in addition to the cost savings associated with
on-site contractors, there are a number of non-monetary benefits related to security,
access/communication, and equipment usage. These benefits as described by DIT are detailed in
Table 2.



                                                         5
Table 2: DIT Non-Monetary Benefits of Housing Contractors On-Site
Security                  Access/Communication          Equipment/Hardware/Software
•   Cost avoidance of ensuring IT    •   Immediate face-to-face            •   Ensure use of the same version of
    security at off-site locations       availability with FDIC staff          software
• Uniform, consistent                •   Avoid delays incurred by travel   •   Ensure that all equipment is in
    implementation of Security           to and from meetings                  accordance with FDIC
    policies                         •   Immediate first hand                  specifications
• Only FDIC approved                     information exchanged between     •   Immediate replacement/repair of
    hardware connected to the            parties                               malfunctioning hardware
    infrastructure                   •   Familiarity with customers, and   •   Ensure that technical upgrades are
• Immediate reaction to a                technical environment                 uniformly available
    Security breach                  •   Same test facilities and
• Enhanced physical security as          environment
    opposed to commercial            •   Improved access to helpdesk
    leasing of extra space               support
Source: DIT.

DOA provided Ai with DIT’s January analysis and instructed Ai to assume a future DIT on-site
contracting need of 174 contractors.

DOA provided us a draft report on Ai’s analysis in April 2005 and Ai’s final report in May 2005.
The analysis presented three options and calculated net present value (NPV) revenue/savings
estimates under 5-year and 10-year periods. Each option was based on different configurations
of division and office employees within FDIC headquarters-owned buildings. The options
considered potential lease revenue for vacant space for Options I and II and savings from
discounted on-site contractor rates for Option III. Table 3 summarizes the economic effect of
each option.

Table 3: Net Present Value Cost Analysis of Real Estate Options
                                                                           FDIC          Revenue or Savings
Options                                             Space Utilization      Staff        5 Year      10 Year
                                                                           Moves         NPV          NPV
Option I—1776 F Street Lease: Consolidate staff     Lease 40,030 Usable      286      $5,743,153 $10,708,690
in VASQ and lease F Street vacant space.             Square Feet (USF)
                                                     15,041 USF vacant
Option II—VA Square Lease: Consolidate staff at      Lease 49,003 USF          311     5,750,981     10,787,532
1776 F Street and VASQ Phase I and lease space        6,068 USF vacant
in VASQ Phase II.
Option III—Consolidate staff at 1776 F Street and     DIT Contractors          60      7,018,598     12,529,883
VASQ Phase I and house DIT contractors in            occupy 38,695 USF
VASQ Phase II.                                       16,376 USF vacant
   Source: Ai draft report dated April 8, 2005.

In late May 2005, the DOA Associate Director proposed Option III to the EOC as the best course
of action for FDIC. The EOC accepted DOA’s proposal. The Associate Director stated that his
decision was based not only on the greater economic benefit that would be achieved as shown in
Table 3 above, but also on the non-monetary benefits to the FDIC related to housing DIT
contractors on-site.




                                                        6
OIG Analysis of DOA Estimates

To validate the reasonableness of DOA estimates, we focused on three areas: (1) future
permanent staffing levels and space requirements, (2) current lease rates in the Virginia Square
area, and (3) future DIT contracting needs, on-site rates, and intangible benefits from on-site DIT
contractors.

Future Permanent Staffing Levels: The 2002 Board of Directors’ decision to build VASQ
Phase II was based on a DOA Long-Term Housing Study (LTHS) updated in August 2001. The
LTHS estimated office space needs based on a factor of 332.5 rentable square feet (RSF) per
employee.2 The LTHS identified a requirement for 372,068 square feet to accommodate
1,119 headquarters staff.

We analyzed DOF-estimated staffing projections and concluded that the downsizing effort will
result in a total of 197 fewer permanent employees at VASQ—78 employees in the existing
structure (Phase I) and 119 employees in the new structure (Phase II). These staffing estimates
were the same as those estimates used in the Ai analysis.

As discussed earlier, DOA removed from consideration the option to sell the FDIC-owned
F Street building because there was not enough vacant space to warrant the sale. We reviewed
DOF staffing projections and confirmed that downsizing plans will result in 10 fewer staff being
housed in the F Street building. DOA and Ai projected 9,769 usable square feet (USF) of vacant
space out of 120,414 USF available in the F Street building. FDIC also plans to close the Child
Development Center in the F Street building which will leave an additional 6,607 USF vacant on
the ground-floor level. Because over 85 percent of the F Street building will be occupied, and
because it is prudent to retain a small amount of space to absorb periodic staffing changes, we
concluded it was reasonable to remove the option to sell the F Street building from consideration.

Virginia Square Lease Rates: We obtained current leasing rates for the Virginia Square area of
Arlington County, Virginia, and estimated what the FDIC could earn from leasing vacant space
at VASQ using the 332.5 RSF per employee factor and the DOF downsizing estimates. We
estimated the net present value of a 10-year lease for the RSF available at about $13 million net
of operating expenses as shown in Table 4.

Table 4: Preliminary Estimates on Impact of Downsizing
                                  Employee              Rentable Square Feet
    VASQ Phase                                                                          10-year lease NPV
                                  Downsizing             (332.5 per person)
    Phase I (old structure)         78 staff                  25,935 RSF                   $5.16 million
    Phase II (new structure)        119 staff                 39,567 RSF                   $7.87 million
 Total                              197 staff                 65,502 RSF                 $13.03 million
Source: OIG Analysis.
Note: Analysis based on $35 per square foot (psf) less $10 psf operating expenses with a 4 percent annual rent
escalation. The calculation also includes a 6 percent lease commission and a $45 psf tenant improvement allowance.

2
 Rentable Square Foot reflects individual office or cubicle space plus a 30 percent factor for circulation space and a
15 percent loss factor. For an employee with a 250 square foot office, the RSF calculation would be (250 x 1.3) x
1.15 = 374 RSF.


                                                          7
Our estimate resulted in a 10-year NPV that was $2.24 million higher than Ai’s Option II
($10.8 million) presented in Table 3. The primary reason for this difference is that our
calculation used 65,502 rentable square feet, while DOA/Ai’s used 55,071 usable square feet
(with 6,068 square feet of that amount remaining vacant). RSF represents the area on which a
rental payment is based; USF is the area that a tenant can actually utilize. The difference
between the two is called a loss factor and is usually expressed as a percentage of USF (usually a
15-20 percent loss factor is used in the real estate industry). Applying a 15-percent loss factor to
DOA/Ai’s USF amount yields 63,332 RSF which approximates our estimate of 65,502 RSF.

Further, our calculation is somewhat theoretical and based on the original LTHS per employee
space allocation, while DOA’s calculation is situational and considers the practical realities of
configuring office space; locating divisions and offices to achieve operational efficiencies; and
providing adequate “swing space” to accommodate periodic staffing fluctuations. We concluded
that DOA/Ai’s Option II leasing estimates and our leasing estimate provided a reasonable range
for potential revenue from leasing space at VASQ.

Future DIT Contracting Requirements: To validate DIT’s analysis of potential savings from
moving contractors on-site at VASQ, we verified information about the number of current
off-site DIT contractors, plans for replacing or consolidating existing contracts, differences
between on and off-site rates, and the validity of non-monetary benefits of having contractors
on-site.

DIT based its per capita cost savings estimates on 174 contractor staff. In early April 2005, we
researched FDIC’s Outlook database and identified 213 DIT off-site contractors.3 We accessed
the Contract Management Information System and worked with DIT to determine contractor
information, including the expiration year of each vendor’s contract(s) and whether there would
be a continuing need for each vendor’s contract(s) or whether the contract(s) would be
consolidated into DIT’s Information Technology Application Services (ITAS) contract.4 We
also verified with DIT that most existing contracts offer lower on-site rates and that the
contractors would be required to begin billing on-site rates immediately in the event that the
contractors were moved on-site at VASQ (i.e., no contract modification would be required to
receive on-site rates). Table 5 presents our analysis of DIT existing contractor staff sorted by
contract expiration year.




3
  In its analysis, DIT initially concluded that one contractor, Pinkerton, had lower off- than on-site rates. Thus DIT
excluded 41 Pinkerton off-site contractor employees from its analysis. DIT later determined that Pinkerton’s on-site
rates were lower than their off-site rates.
4
  ITAS is a multiple award contract valued at $550 million over a 10-year period of performance. ITAS will
consolidate a number of existing contracts and award future task orders to four pre-approved contractors for
application development and maintenance support.


                                                          8
Table 5: Existing On and Off-Site DIT Contractors
                        Staff            Staff          Expiration         Planned Replacement
Company                 Currently        On-Site at     Year of            of Contract
                        Off-Site         VASQ           Contract(s) (a)
IBM                           5                5             2005          Consolidated into ITAS
Janus                          0               4             2005          Consolidated into ITAS
Unisys                        0              10              2005          Consolidated into ITAS
Z. Inc                         8               5             2005          Consolidated into ITAS
ATS                            6               1             2006          Consolidated into ITAS
STSI                          16               0             2006          Consolidated into ITAS
Bearing Point                 26             21              2007          Contract will be renewed, competed
                                                                           and/or consolidated into ITAS.
CIBER                         26               7              2007         Consolidated into ITAS
COMSO                         13               4              2007         Consolidated into ITAS
Pinkerton                     41              20              2007         Consolidated into ITAS
Accenture                     20              35              2009         Consolidated into ITAS
Impact Innovations             3              36              2009         Consolidated into ITAS
SRA(b)                         9              162             2009         Will not be consolidated
Deloitte Consulting           13               1              2012         Consolidated into ITAS
Booze Allen                    5               1              2015         Consolidated into ITAS
Misc.                         22              36             Various       N/A
Total                        213              348
Source: OIG Analysis and DIT contractor information.
Notes:
(a) Some vendors have multiple contracts. For each vendor we used the contract with the latest expiration date.
(b) SRA is the vendor for the Infrastructure Services Contract which consolidated existing infrastructure support
    contracts. DIT does not intend to consolidate the Infrastructure Services Contract into ITAS.

Since most of the existing contracts will be consolidated into the ITAS contract, we analyzed
ITAS contract pricing schedules to calculate the difference between on- and off-site rates. The
ITAS contract has four prime and a number of subcontractors that have been prequalified to
receive contract work through the award of task orders. Each contractor offered differing on-
and off-site rates. We concluded that, on average, the on-site rates were about 6.7 to 9 percent
less than the off-site rates. Accordingly, we concluded that DIT’s assumption of a 6.3 percent
savings from on-site rates was reasonable.

Another benefit cited by FDIC for having IT contractor personnel in Virginia Square is that this
arrangement provides for increased security for FDIC systems. We agree that there are
security-related benefits to having contractor personnel on-site as presented in Table 2.

However, we could not determine with certainty the number of contractor personnel that DIT
actually planned to move on-site or whether that number would fluctuate over time. We also
could not determine with certainty, as existing contracts are consolidated into ITAS, whether
DIT will replace departing contractor personnel on a one-for-one basis with on-site ITAS
contractor personnel or achieve contractor personnel reductions. The following figure presents
the breakeven point between our and DOA/Ai’s leasing analyses and savings achieved from
moving various additional levels of DIT contractor staff on-site over a 10-year period.




                                                         9
       Breakeven Analysis of Savings from Moving Additional DIT Contractor
       Personnel On-Site (10-Year NPV)

                      $18.0
                      $16.0
                      $14.0
                      $12.0
           Millions




                      $10.0
                       $8.0
                       $6.0
                       $4.0
                       $2.0
                       $0.0
                                100        125         150      175       200       225
                                         Additional DIT On-Site Contractor Staff

                      DIT On-Site Contractor Savings         OIG Estimated Lease Revenue
                      DOA/Ai Estimated Lease Revenue

       Source: OIG analysis.

As shown, from a financial standpoint, DIT will need to house a minimum of 150 additional
contractor staff currently located off-site for savings to exceed the revenues from DOA/Ai’s
Option II—Virginia Square Lease (as presented in Table 3) and about 176 additional contractor
staff currently located off-site for the savings to exceed our Virginia Square leasing revenue
estimate (as presented in Table 4). Further, the DIT contractors would need to remain on-site for
the full 10-year period of analysis. The Corporation has developed several large corporate
systems over the past few years and thus needed significant contractor resources to support those
initiatives. However, the Chief Information Officer has indicated that the number of major
system development projects will decrease going forward. Thus, there is some uncertainty about
whether FDIC will have sufficient future system development activity to sustain the current level
of contractor staffing.

In response to a draft of this report, DIT provided additional explanation for why it is difficult to
estimate the future number of DIT contractors. In addition to the consolidation of existing
contracts into ITAS over time (as discussed above in Table 5), DIT’s response noted that
contactor workloads can fluctuate significantly with changing IT requirements and contractor
personnel numbers can fluctuate as new vendors take on tasks from old vendors and as new
vendors identify and implement best practices across the enterprise, thereby increasing contractor
personnel efficiencies.




                                                       10
Conclusion
DOA’s project management of the Virginia Square Phase II construction is keeping the project
generally on schedule and within budget. DOA has maintained compliance with its project
control framework and has an effective project management team in place. DOA is also
planning for space utilization in light of corporate downsizing. We were able to validate the
reasonableness of most of the assumptions used in the options being considered, as well as the
non-monetary benefits associated with housing contractor personnel in the Phase II tower.
However, DOA needed to work with DIT to develop more precise projections of anticipated on-
site contractor staffing at Virginia Square to help ensure that DOA selected the space utilization
option that provides the greatest operational and financial benefits.

Corporation Comments and OIG Evaluation

We issued a draft of this report dated May 24, 2005. DOA elected not to provide a written
response. DIT provided a written response dated June 7, 2005 to provide additional information
regarding why future DIT contractor personnel numbers cannot be definitively determined. We
incorporated this additional information into our final report where appropriate. DIT’s response
is included in its entirety as Appendix II.




                                                11
                                                                                  APPENDIX I



Objective, Scope and Methodology
The objectives of this evaluation were to determine whether: (1) the Virginia Square Phase II
project costs are within budget and tasks are being completed on schedule, (2) the FDIC is
following its established project control framework, and (3) DOA has planned for space
utilization in light of corporate downsizing. We performed our evaluation from March 2005
through May 2005 in accordance with generally accepted government auditing standards.

In performing this evaluation we interviewed FDIC and contractor personnel including the:

   •   Contracting Officer, Oversight Manager, and Technical Monitor for the Turner
       Construction Contract
   •   Vice President, Orr Partners, Virginia Square Phase II Development Manager
   •   DIT Deputy Director, Business Administration Branch
   •   DOF Manager, Program Administration Branch
   •   FDIC Oversight Manager, Heery International
   •   DOA Assistant Director, Leasing
   •   DOA Chief, Space Planning and Design

We also reviewed various documents related to the Virginia Square Phase II project including:

   •   The March 22, 2002 FDIC Board Memorandum approving the Phase II construction.
   •   The contracts between the FDIC and Turner, Orr, Ai, and Heery.
   •   Turner contract modifications 1 through 10.
   •   Change orders to the Turner Contract.
   •   Permits obtained for the Virginia Square Phase II construction.
   •   The Development Manager’s Monthly Progress Reports from January 2004 to March
       2005 including Budget, Change Order Logs, Construction Schedules, Meeting Minutes,
       Task Lists, and Request for Information submittals.
   •   Notes from Executive Oversight Committee meetings during 2004 and 2005.
   •   DIT’s On-site/Off-site Contractor Analysis dated February 1, 2005.
   •   FDIC Cost Analysis of Real Estate Options as of April 11, 2005.
   •   Washington on-site employees and DOF contractor staffing schedules.
   •   Negotiated labor rates for DIT contracts.
   •   Prior OIG audit reports related to the Virginia Square Phase II project.

We also conducted analysis of various real estate alternatives based on information obtained
from an independent real estate firm familiar with the Northern Virginia area. We used this
analysis to evaluate the reasonableness of DOA space utilization assumptions.

We relied on information from FDIC’s Microsoft Outlook employee and contractor database and
DOA’s Contract Management Information System to estimate the number of on-site and off-site
DIT contractors and expiration dates for DIT contracts. We examined the data for obvious errors
or missing entries and interviewed officials knowledgeable about the data who regularly use the
data for evaluation. We concluded the data were sufficiently reliable for the purposes of this
assignment.


                                               12
Appendix II
     APPENDIX II




14
